<html>
<title> - RECOGNIZING THE 60TH ANNIVERSARY OF VICTORY IN EUROPE (VE) DAY AND LIBERATION OF WESTERN BOHEMIA; RECOGNIZING THE 60TH ANNIVERSARY OF VE DAY DURING WORLD WAR II; SUPPORTING THE ORGANIZERS AND PARTICIPANTS OF THE MEETING OF THE ASSEMBLY TO PROMOTE THE CIVIL SOCIETY IN CUBA; CALLING ON THE GOVERNMENT OF NIGERIA TO TRANSFER CHARLES TAYLOR TO THE SPECIAL COURT FOR SIERRA LEONE; AND OBSERVING THE 30TH ANNIVERSARY OF THE FALL OF THE REPUBLIC OF VIETNAM TO THE COMMUNIST FORCES OF NORTH VIETNAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
             RECOGNIZING THE 60TH ANNIVERSARY OF VICTORY IN EUROPE 
             (VE) DAY AND LIBERATION OF WESTERN BOHEMIA; RECOGNIZING 
                    THE 60TH ANNIVERSARY OF VE DAY DURING WORLD 
                 WAR II; SUPPORTING THE ORGANIZERS AND PARTICIPANTS 
                    OF THE MEETING OF THE ASSEMBLY TO PROMOTE THE 
                  CIVIL SOCIETY IN CUBA; CALLING ON THE GOVERNMENT 
                 OF NIGERIA TO TRANSFER CHARLES TAYLOR TO THE SPECIAL 
                  COURT FOR SIERRA LEONE; AND OBSERVING THE 30TH 
                  ANNIVERSARY OF THE FALL OF THE REPUBLIC OF VIETNAM 
                    TO THE COMMUNIST FORCES OF NORTH VIETNAM 
=======================================================================



                                   MARKUP 

                                 BEFORE THE 

                                 COMMITTEE ON 

                           INTERNATIONAL RELATIONS 
                           HOUSE OF REPRESENTATIVES 

                          ONE HUNDRED NINTH CONGRESS 
                        
                                  FIRST SESSION 
 
                                       ON 

                      H. Res. 195, H. Res. 233, H. Res. 193, 
                        H. Con. Res. 127 and H. Res. 228 

                                  --------

                             APRIL 27, 2005 

                                  --------
                       
                             Serial No. 109-18 

                                  --------

  Printed for the use of the Committee on International Relations 


                             Available via the 
        World Wide Web: http://www.hollse.gov/international_relations 

                                   -----

                       U.S. GOVERNMENT PRINTING OFFICE 

20-916PDF                      WASHINGTON : 2005 

  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                         Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]


</pre></body></html>
